INSPECTOR GENERAL




I hereby submit this Semiannual Report: October 1,2004 - March 3 1,2005, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG) of the National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman transmit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

In the audit program, OIG issued four audit reports, one inspection report, and one issue
alert. In the investigations program, OIG processed 102 contacts, initiated 9 cases, and
closed 5 cases. The investigations resulted in three administrative actions and $l2,48 1 in
investigative recoveries. We reviewed five pieces of legislation. Details on these
accomplishments can be found in the body of this report.

The Accountability of Tax Dollars Act of 2002 required the Agency to have an audited
financial statement. This challenge was made more complex because the Agency changed
financial systems in midyear. The Agency reengineered the reporting process for
performance information, and completed the process in 6 weeks. Significant changes in
NLRB's Federal Managers Financial Integrity Act compliance assessment and report
process were also required.

NLRB management and staff met the challenge. NLRB submitted its first Performance
and Accountability Report to the Office of Management and Budget (OMB) and Congress
on November 15,2004. The Agency achieved an unqualified opinion on the financial
statements with no material weaknesses in internal control. In comparison, OMB reported
that 2 of the Federal Government's largest agencies did not make the 2004 reporting due
date and 5 of the 23 largest agencies did not receive an unqualified opinion.

I appreciate the support of all Agency employees in achieving the accomplishments set
forth in this report.




                                              April 29,2005
                                                                         F
                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair fair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1         October 1, 2004 – March 31, 2005
                                                                         AGENCY PROFILE

Former Board Member Ronald E.                    ceiling of 1,865 full-time equivalents.
Meisburg (recess appointment expired             NLRB Headquarters is at 1099 14th
December 8, 2004) was nominated for a            Street, NW, Washington, DC.
term expiring August 27, 2008. No
successor has been nominated for former          In addition to the Headquarters building,
Board Member Dennis P. Walsh (term               employees are located in 51 field offices
expired December 16, 2004).                      throughout the country. Three satellite
                                                 offices for the Administrative Law
Robert J. Battista continues to serve as         Judges are located in Atlanta, San
Chairman along with Board Members                Francisco, and New York. Since
Peter C. Schaumber and Wilma B.                  October 2, 2000, field offices included
Liebman.                                         32 Regional Offices, 16 Resident
                                                 Offices, and 3 Subregional Offices.
The NLRB received an appropriation of
$251,875,000 for Fiscal Year (FY) 2005,          Additional information about the NLRB
less an across-the-board rescission of .80       can be found on the Web site
percent, leaving a net spending ceiling of       www.NLRB.gov.

$249,860,000 to fund an expected




NLRB OIG Semiannual Report                   2         October 1, 2004 – March 31, 2005
                                   OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                      Investigations, Assistant Inspector
The FY 2005 OIG budget is $1,103,000           General for Audits, an investigator, three
for operations, of which $169,000 is for       auditors, and a staff assistant.
contract services. In addition to the
Inspector General, the OIG consists of a       Deborah A. Micsky entered on duty as
Counsel/Assistant Inspector General for        an investigator on January 10, 2005.




NLRB OIG Semiannual Report                 3          October 1, 2004 – March 31, 2005
                                                             AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued four audit
reports, one inspection report, and one issue alert. Two audit reports identified $7,500
in costs that could be put to better use.

Reports Issued                                   CBTC's Report on Internal Control
•   We issued Audit Report                       identified a reportable condition
OIG-F-9-05-01, Audit of NLRB Fiscal              involving information technology
Year 2004 Financial Statements, on               security and included one
December 22, 2004. The audit was                 recommendation for improvement.
required by the Accountability of Tax
Dollars Act of 2002. This was the first          A Management Letter identified five
Agency financial statement audit.                other areas in which management could
                                                 improve controls or operating
The audit, performed by Carmichael,              effectiveness. These included
Brasher, Tuvell & Company (CBTC), an             monitoring backpay balances, reviewing
independent public accounting firm,              undelivered orders, implementing the
found that NLRB's FY 2004 Financial              plan to migrate the Regional Office
Statements were fairly stated. No                Budget System to the Agency's
material weaknesses in controls over             comprehensive financial management
financial reporting were identified. In          system, developing and implementing
addition, no instances of non-compliance         internal procedures for people to
with laws and regulations required to be         challenge debt owed the Agency, and
reported by Government Auditing                  implementing prior year
Standards or the Office of Management            recommendations.
and Budget (OMB) were identified.
                                                 Management agreed with the findings
                                                 and recommendations.




NLRB OIG Semiannual Report                   4          October 1, 2004 – March 31, 2005
                                                                          AUDIT PROGRAM

•   We issued Audit Report                        Development Lifecycle (SDLC) Model
OIG-AMR-44-05-01, Survey of the                   when making changes to the Pending
Office of Representation Appeals, on              Case List Tracking System in FY 2004.
January 7, 2005. We conducted this                The documentation that the Agency is
survey to gather information about the            using a spiral SDLC in lieu of the formal
Office of Representation Appeals (R               SDLC was created and provided in
Unit) and to identify internal controls           response to the discussion document for
that management exercises in carrying             this survey.
out its mission.
                                                  Second, the FY 2003 Annual
Over the past 6 years, the number of              Performance Report provides results
cases pending in the R Unit ranged from           showing that the Agency achieved a
70 in FY 2000 to 145 in FY 2002 and               performance goal related to the R Unit.
decreased to 115 at the end of FY 2004.           If the calculation was consistent with the
The increases in pending cases occurred           narrative, the reported result would
even though the number of cases                   increase by 3 days. The point is now
decreased significantly. We did not               moot because the measure has been
identify potentially significant structural       dropped as a goal for FY 2005 and
or procedural issues within the R Unit            beyond.
that contributed to the fluctuations in
caseload. We concluded that a more                Management agreed with our
detailed review was not necessary.                descriptions of the processes in the
                                                  R Unit, but disagreed with other aspects
We identified two issues. First, the              of the report.
Agency did not use its formal System




NLRB OIG Semiannual Report                    5          October 1, 2004 – March 31, 2005
                                                                         AUDIT PROGRAM

•   We issued Audit Report                      the procurement of above-standard
OIG-AMR-45-05-02, Monitoring                    services such as overtime utilities.
Building Leases, on March 8, 2005. We
conducted this audit to evaluate the            Each of the four field offices visited had
process used by the Agency to procure           several vacant offices. The observations
office space and determine whether the          were consistent with the latest Agency
Agency is adequately monitoring                 analysis of leased space. Generally,
building leases.                                vacant offices are not returned if the
                                                economic cost to release the space is
Generally, the Agency had effective             greater than the projected savings, and
controls over the procurement of space          GSA will not take space back if it is not
and monitoring of building leases.              available in marketable blocks.
Agency policy was followed in lease
actions during FY 2004. The Agency              The Agency could put $6,756 to better
was proactive in determining whether            use in FY 2006 by releasing parking
excess office space could be returned to        spaces that are not needed in four field
the General Services Administration             offices and $563 per month if the spaces
(GSA). In early FY 2005, the Agency             are released before then. The Division
returned about 14,000 square feet of            of Operations-Management agreed to
Headquarters and Regional Office space.         take action on six excess spaces and
This could result in an estimated savings       determined that one space was
of nearly $600,000 for FY 2005.                 operationally justified. The actions
                                                being pursued by the Agency will save
The Agency does not actively monitor            $5,040 in FY 2006.
the receipt of standard services because
these are GSA responsibilities and the          Management generally agreed with the
Agency has generally not had problems           other findings and recommendations.
with the provisions of these services.
The Agency had adequate controls over

NLRB OIG Semiannual Report                  6         October 1, 2004 – March 31, 2005
                                                                         AUDIT PROGRAM

•   We issued Audit Report                       the exchange of a ticket, resulted in a
OIG-AMR-46-05-03, Airline Ticket                 total of $744.90 that could have been put
Purchases, on March 11, 2005. We                 to better use. We also identified one ex-
conducted this audit to determine                employee who still had approving
whether controls over purchasing airline         capabilities in Travel Manager.
tickets are sufficient. This included
determining whether charges for unused           The Agency received refunds of $662.70
tickets were refunded, purchases for             and a credit of $82.20 will be applied
premium class travel were properly               towards future travel. All of the tickets
justified, and reimbursements for tickets        in question were purchased from one
purchased by individuals were                    airline. The Agency contacted the
appropriate.                                     airline and was informed that credits are
                                                 not automatically provided from this
We did not identify any first or premium         airline and that the traveler must request
class ticket purchases and the Agency’s          a refund. The Agency issued an
procedures to control such purchases             administrative bulletin informing
appear to be adequate. Tickets were              employees of the airline's policy and the
generally purchased from a contract              correct handling of these transactions.
carrier. Non-contract carrier purchases
were usually in situations in which a city       The Finance Branch had no comment on
pair fare did not exist. None of the 245         the findings and has already completed
airline tickets purchased with individual        corrective actions for the two
travel cards were also paid with the             recommendations made in the draft
centrally-billed account.                        report. Therefore, we had no
                                                 recommendations in the final report.
A database obtained from one airline
showed that all or part of four trips with
unused tickets were not refunded. This,
along with an open credit of $3.10 due to

NLRB OIG Semiannual Report                   7         October 1, 2004 – March 31, 2005
                                                                         AUDIT PROGRAM

•   We issued Inspection Report                 Management initiated action to monitor
OIG-INS-35-05-01, Review of Spending            CPR and first aid training in field
for Safety Supplies and Services, on            offices. Management revised the health
October 21, 2004. We initiated this             and safety poster for field offices to
inspection to evaluate aspects of the           include the required information. The
workplace safety program, particularly          poster is located on the Agency's
the need assessed, funds allocated, and         Intranet. A meeting with union
purchases for supplies and services.            committee representatives has been
                                                scheduled for June 2005.
The Agency's spending for safety
supplies and services was for identified        •   We released Issue Alert
needs and for appropriate items. The            OIG-IA-05-01, Top Management and
Agency performed annual inspections of          Performance Challenges, on October
both Headquarters and most field                14, 2004. The OIG developed a list of
offices, tracked identified deficiencies,       what it considers to be the most serious
and abated identified conditions. The           management and performance
Agency effectively monitored                    challenges facing the NLRB. They are:
cardiopulmonary resuscitation (CPR)
and first aid training at Headquarters.         1. Reduce the Board's pending caseload
                                                    to meet performance goals;
Forty-nine percent of field offices did         2. Comply with the Privacy Act system
not have current CPR training and 47                notice requirement for the Agency's
percent did not have first aid training.            information systems;
Also, the Agency did not post all
required safety and health related
information. The Advisory Committee
on Health and Safety did not meet
semi-annually as set forth in union
agreements.

NLRB OIG Semiannual Report                  8          October 1, 2004 – March 31, 2005
                                                                       AUDIT PROGRAM

3. Implement an information security           security, which was not considered to be
    intrusion detection program;               a significant deficiency, was identified.
4. Develop, implement, and test an IT          Known weaknesses are being addressed
    contingency plan in accordance with        in a systematic manner. On October 6,
    guidance promulgated by the                2004, the Chairman submitted reports
    National Institute of Standards and        from the Inspector General and Chief
    Technology;                                Information Officer to OMB.
5. Implement internal controls needed to
    obtain an unqualified opinion on           Audit Follow-up
    financial statements to be audited;        Agreed upon actions were not completed
6. Meet regulatory and statutory               within 1 year on two audit reports.
    reporting due dates for government-
    wide reporting requirements;               •   Information Security Review of
7. Implement e-government initiatives          New Automated Systems, OIG-AMR-
    to effectively communicate with            40-03-03, was issued on September 22,
    parties and the public; and                2003, and we reached agreement with
8. Strengthen internal controls over           management on actions needed to
    backpay funds deposited with and           implement the eleven recommendations
    paid through the U.S. Department of        on that date. Action was completed on 7
    Treasury.                                  of the 11 recommendations.
                                               Management is working to implement
•   The Federal Information Security           the remaining recommendations by the
Management Act of 2002 requires                end of FY 2005.
inspectors general to conduct annual
reviews of information security
programs. The OIG review was
primarily accomplished as part of the
audit of the FY 2004 Financial
Statements. A reportable condition on

NLRB OIG Semiannual Report                 9         October 1, 2004 – March 31, 2005
                                                                  AUDIT PROGRAM

•   Review of Data Accuracy in the        December 1, 2003. The agreed upon
FY 2001 Annual Report, OIG-AMR-39-        actions included having the Agency
03-04, was issued on September 30,        conduct a study to determine whether
2003. We reached agreement with           the Agency will produce an annual
management on actions needed to           report and, if so, in what form. A final
implement the recommendation on           determination has not been made.




NLRB OIG Semiannual Report           10         October 1, 2004 – March 31, 2005
                                              INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 102 contacts, initiated 9 cases, and closed 5 cases. The investigations resulted
in 2 suspensions, 1 counseling, and $12,481 in investigative recoveries. One case
resulted in a target letter from the U.S. Attorney's Office notifying the subject of grand
jury proceedings.


                        Case Workload                   Contacts Processed

                  Open (10/1/2004)        5        Received                  102

                  Initiated               9        Initiated Investigation    2

                  Closed                  5        Opened Case --              1
                                                   Referred to Agency
                  Open (3/31/2005)        9        Non-Investigative         100
                                                   Disposition


•   Education Credentials. As                       The Agency referred this matter to OPM
previously reported, the OIG issued a               for a suitability determination. During
report involving an employee who stated             this reporting period, OPM found that
on her employment application that she              the subject was not unsuited for Federal
expected to complete a degree and then a            employment. The Agency imposed a 2-
month later claimed to have completed               day suspension for providing false
the degree when she submitted her                   information. (OIG-I-345)
security background questionnaire for
the Office of Personnel Management                  •    Travel Card Misuse. This case was
(OPM). The background investigation                 initiated after OIG auditors identified
disclosed that the degree had not been              possible misuse of a travel card by a
completed. When questioned about this               Field Attorney. At the request of the
discrepancy, the subject falsely stated             Agency, we referred this matter to the
that she had completed the course work              Division of Operations-Management for
for the degree.                                     investigation.



NLRB OIG Semiannual Report                    11              October 1, 2004 – March 31, 2005
                                                                 INVESTIGATIONS PROGRAM

The investigation by the Division of               leave donor program. The value of the
Operations-Management substantiated                annual leave was $10,657. (OIG-I-360)
that on 12 occasions during November
and December 2004 the subject used the             •   Time and Attendance. OIG
Travel Card to purchase merchandise                initiated this case after receiving a
that was not related to official travel.           Hotline complaint that an office was not
The value of the purchases was $329.               charging an employee sick leave for
The subject received a 2-day suspension            periods of time that the employee was
with the provision that 1 day may be               incapacitated and not able to work. The
served on a weekend without a loss of              investigation substantiated that the
pay. (OIG-I-368(R))                                employee was allowed to engage in full
                                                   time work-at-home and that she did not
•   Sexually Explicit Internet                     submit leave requests for periods of time
Material. As previously reported,                  that she was hospitalized or absent from
following an OIG investigative review              her home for medical appointments.
of the Agency's Internet firewall logs,
we initiated an investigation of an                During the investigation, the employee
employee who was suspected of using                submitted three leave requests for a total
the Government computer to view                    of 48 hours of annual leave to cover the
sexually explicit material on the Internet.        periods of time that she was hospitalized
Using commercially available forensic              or at a medical appointment. The value
software, we substantiated the                     of the annual leave was $1,824. In a
allegation.                                        memorandum to the office director, we
                                                   suggested that he take corrective action
During this period, the Agency and the             to ensure that he certifies the time and
subject entered into an agreement for              attendance in accordance with
alternative discipline. The subject was            Government-wide policy. (OIG-I-369)
counseled via a Letter of Warning and
donated 262 hours of annual leave to the


NLRB OIG Semiannual Report                    12          October 1, 2004 – March 31, 2005
                                                               INVESTIGATIONS PROGRAM

•   Harassment. OIG initiated this                Following the dismissal of a case by an
case after a referral from a Regional             administrative judge (AJ), a litigant filed
Office that alleged harassment and                both a request for review of that decision
obstruction of an administrative                  with the agency and a denial of access
proceeding by an employer in an unfair            complaint with the agency's Equal
labor practice case. The harassment               Employment Opportunity Office. Both
consisted largely of letters and faxes            filings alleged that the AJ violated the
with harassing statements that the                litigant's due process rights by
subject sent to Regional personnel. This          discriminating against her based upon a
is a joint investigation with the Federal         disability. The agency resolved the
Protective Service.                               denial of access complaint by entering
                                                  into a settlement agreement with the
After reviewing the investigation, the            litigant that dismissed the request for
U.S. Attorney's Office issued a target            review and remanded the case to a new
letter to the subject notifying him of            AJ. The opposing litigant was not a
pending Grand Jury proceedings for                party to the negotiations or the
obstructing and impeding a                        settlement agreement.
governmental proceeding. Those
proceedings are pending. (OIG-I-364)              We found that the agency violated its
                                                  own regulations by receiving ex parte
•   Abuse of Discretion. OIG initiated            communications and disposing of the
this case after entering into an agreement        request for review through a settlement
for investigative services with another           agreement with an interested party. We
agency. The allegation against that               issued an investigative report to the
agency was that it considered ex parte            agency without a recommendation for
communications while acting in a quasi-           remedial action. (OIG-I-365(O))
judicial capacity.




NLRB OIG Semiannual Report                   13          October 1, 2004 – March 31, 2005
                                                                INVESTIGATIONS PROGRAM




Hotline                                            information is analyzed to determine if
Employees and members of the public                further inquiry is warranted. Most
with information on fraud, waste, and              HOTLINE contacts are calls from
abuse are encouraged to contact OIG. A             members of the public seeking help on
log of calls to a nationwide toll free             an employment related problem or issues
number or the office numbers and a log             outside OIG and/or Agency jurisdiction.
of mail, e-mail, and facsimile messages            As appropriate, OIG refers these callers
are maintained. All information                    to the NLRB office; local, state, or
received, regardless of the method used,           Federal agency; or private resource to
is referred to as HOTLINE contacts.                provide assistance.


The information received over the                  During this reporting period, OIG
hotline is the basis for the initial review        received 102 hotline contacts, of which
for potential investigations. The                  33 were telephone calls and 69 were in
                                                   writing. Two contacts resulted in OIG
                                                   investigative cases.




NLRB OIG Semiannual Report                    14         October 1, 2004 – March 31, 2005
                 LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed five pieces of legislation and four proposed regulatory
matters.

Legislation                                      NLRA to make it an unfair labor
We reviewed the following legislation            practice for an employer or a labor
and provided input when appropriate.             organization to bring or cause to be
                                                 brought any civil or adversarial action
Pub. L. 108-447, Consolidated                    against a labor organization or an
Appropriations Act, 2005. Section 520            employer if such action is determined by
of the Transportation, Treasury, and             a competent fact finder to be frivolous,
General Government Appropriations                vexatious, or objectively baseless and
Act, which is part H of the Consolidated         not brought in good faith. The
Appropriations Act, 2005, requires that          legislation would also make the party
each agency appoint a Chief Privacy              found to have violated this prohibition
Officer and that every 2 years IGs               liable to the party or parties against
contract for an independent third party          whom such action is brought for all
review of the agency's privacy and data          reasonable costs.
protection procedures.
                                                 H.R. 874, Secret Ballot Protection Act
H.R. 1271. This legislation would                of 2005. This legislation would amend
repeal section 520 of the Transportation,        the NLRA to make it an unfair labor
Treasury, and General Government                 practice for: (1) an employer to
Appropriations Act which is part H of            recognize or bargain collectively with a
the Consolidated Appropriations Act,             labor organization that has not been
2005, cited above.                               selected by a majority of the employees
                                                 in a secret ballot election conducted by
H.R. 773, Fairness in Labor Litigation           the NLRB; and (2) a labor organization
Act. This Legislation would amend the            to cause or attempt to cause an employer

NLRB OIG Semiannual Report                  15          October 1, 2004 – March 31, 2005
                                                 LEGISLATION, REGULATIONS, AND POLICY

to recognize or bargain collectively with         day) to avoid the penalty of losing the
a representative that has not been                ability to assert an exemption.
selected in such manner.                          Exemptions to the release of information
                                                  play an important role in protecting
S. 394, The Open Government Act of                Government information and to tie that
2005. This legislation amends the                 protection to the time of processing a
Freedom of Information Act (FOIA) in              request might result in some unforeseen
an effort to expand the accessibility and         and very unfavorable consequences.
openness of Government. The                       The proposed requirement for
legislation provides that the                     individualized tracking numbers for
commencement of the 20-day time limit             requests and status information may
that the agencies must process a request          have an adverse impact on the financial
for records begins on the day in which            resources of smaller agencies.
the request is first received. It also
creates penalties for not meeting that            Regulations
deadline. The legislation would require           We provided comments to OPM on their
agencies to establish: (1) a system to            proposed changes to absence and leave
assign tracking numbers to requests for           regulations. OPM's proposal to
information; and (2) telephone or                 eliminate the requirement that an
Internet service that provides the status         employee maintain 80 hours of sick
of the request.                                   leave in order to be eligible to use 40
                                                  hours of sick leave to care for a family
We provided comments to OMB for a                 member would be in conflict with the
Legislative Referral Memorandum on                statute that requires the 80-hour sick
S. 394, The Open Government Act of                leave balance. OPM should consider
2005. We are concerned that the                   providing additional guidance on the
proposed changes will result in                   circumstances that permit an agency to
additional litigation as agencies will be         advance sick leave.
required to justify any delay (even 1

NLRB OIG Semiannual Report                  16          October 1, 2004 – March 31, 2005
                                                LEGISLATION, REGULATIONS, AND POLICY

Policy                                           Electronic Records. We were
We provided comments to the                      concerned that certain aspects of the
Government Accountability Office on              recommendations may adversely affect
the Generally Accepted Government                the operation of OIGs. The
Accounting Standards' Requirements of            recommendations should be drafted in a
Continuing Professional Education.               manner that does not require an
The proposed requirements should be              evaluation or review, but rather
rephrased to ensure the standards allow          encourages IG's to expend appropriate
credit for training that is provided by          resources in an area such as electronic
community groups on an as needed                 records management. The draft
basis. The drafted criteria seemed to be         document would require a wholesale
designed more for organizations that             redrafting of OIG position descriptions
provide training on an ongoing basis.            to require knowledge of information and
The Standards should require the audit           records management.
organization, rather than the employee,
to maintain the training records.                Agency Regulations

                                                 The Counsel to the Inspector General is
We provided comments to the U.S.                 an advisory member of the Agency's
National Archives and Records                    Rules Revision Committee that develops
Administration on the                            changes to Agency procedural
Recommendations for the Effective                regulations. During this period, the
Management of Government                         committee reviewed proposed debt
Information on the Internet and other            collection regulations.




NLRB OIG Semiannual Report                 17          October 1, 2004 – March 31, 2005
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Assistant Inspector General for
•   The Inspector General is a member             Audits participated in a mock exit
of the Executive Council on Integrity             conference at an introductory auditor
and Efficiency (ECIE), which consists             training provided by the Inspectors
primarily of the inspectors general at the        General Auditor Training Institute.
designated Federal entities in the IG Act.
She participated in activities sponsored          The Counsel participated in the Council
by the President's Council on Integrity           of Counsels to Inspectors General. The
and Efficiency (PCIE), which consists             Counsel and an auditor are members of a
primarily of the Presidentially-appointed         PCIE/ECIE committee reviewing issues
inspectors general. She joined the Audit          associated with e-government initiatives.
Committee in May 2001.
                                                  Government Accountability Office
The Assistant Inspector General for               The IG Act states that each inspector
Audits, or designated auditors,                   general shall give particular regard to the
participated in the Federal Audit                 activities of the Comptroller General of
Executives Council (FAEC), Financial              the United States, as head of the
Statement Audit Network, Statement of             Government Accountability Office, with
Work Subgroup, Results Act Group,                 a view toward avoiding duplication and
IDEA Users Group, and the FAEC                    ensuring effective coordination and
Information Technology Security                   cooperation. No reviews of NLRB are
Committee.                                        currently ongoing.



NLRB OIG Semiannual Report                   18         October 1, 2004 – March 31, 2005
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             One case was referred to prosecutorial authorities and is currently pending.
                There were no prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 20.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. Two audit reports issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the
                reporting period for which no management decision has been made
                by the end of the reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      19           October 1, 2004 – March 31, 2005
                            AUDIT REPORTS BY SUBJECT MATTER

                                                                         Funds To
                                 Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number           Costs          Costs        Costs      Better Use

ADMINISTRATION

Audit of NLRB Fiscal Year 2004
Financial Statements,
OIG-F-9-05-01                        0             0            0            0

Monitoring Building Leases,
OIG-AMR-45-05-02                     0             0            0          6,756


Airline Ticket Purchases,
OIG-AMR-46-05-03                     0             0            0           744

BOARD ADJUDICATION

Survey of the Office of
Representation Appeals,
OIG-AMR-44-05-01                     0             0            0            0




NLRB OIG Semiannual Report               20        October 1, 2004 – March 31, 2005
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    21   October 1, 2004 – March 31, 2005
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      2           7,500

       Subtotals (A+B)                   2           7,500


C. For which a management
   decision was made during the
   reporting period                      2           7,500

(i)      Dollar value of
         recommendations that were
         agreed to by management         2           6,544

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      1            956

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   22    October 1, 2004 – March 31, 2005
                        Fraud Waste Abuse -
                        You can stop it!

                        Call the IG HOTLINE
                        800 736-2983

                        Or Write to the
                        Office of Inspector General
                        NLRB
                        1099 14th Street, NW
                        Washington, DC 20570




NLRB OIG Semiannual Report         23       October 1, 2004 – March 31, 2005
